<html>
<title> - 2020 CENSUS: CONDUCTING A SECURE AND ACCURATE COUNT</title>
<body><pre>[Senate Hearing 116-136]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-136
 
          2020 CENSUS: CONDUCTING A SECURE AND ACCURATE COUNT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
                           ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 37-458PDF               WASHINGTON : 2020
  
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
 Courtney Allen Rutland, Deputy Chief Counsel for Governmental Affairs
                       Clark A. Hedrick, Counsel
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
       Annika W. Christensen, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     1
    Senator Hassan...............................................    16
    Senator Hawley...............................................    18
    Senator Carper...............................................    24
    Senator Sinema...............................................    29
    Senator Rosen................................................    32
Prepared statements:
    Senator Johnson..............................................    37
    Senator Peters...............................................    38

                               WITNESSES
                         Tuesday, July 16, 2019

Hon. Steven Dillingham, Ph.D., Director, U.S. Census Bureau, U.S. 
  Department of Commerce.........................................     3
Robert Goldenkoff, Director of Strategic Issues, U.S. Government 
  Accountability Office..........................................     5
Nicholas Marinos, Director of Information Technology and 
  Cybersecurity, U.S. Government Accountability Office...........     6

                     Alphabetical List of Witnesses

Dillingham, Hon. Steven:
    Testimony....................................................     3
    Prepared statement...........................................    40
Goldenkoff, Robert:
    Testimony....................................................     5
    Joint prepared statement.....................................    53
Marinos, Nicholas:
    Testimony....................................................     6
    Joint prepared statement.....................................    53

                                APPENDIX

Statements submitted for the Record from:
    National Association of Latino Elected and Appointed 
      Officials..................................................    98
    National Association of Realtors.............................   214
    Partnership for America's Children...........................   216
Responses to post-hearing questions for the Record:
    Mr. Dillingham...............................................   225


          2020 CENSUS: CONDUCTING A SECURE AND ACCURATE COUNT

                              ----------                              


                         TUESDAY, JULY 16, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:29 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Scott, Hawley, Peters, 
Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. We will call this hearing 
to order, once the photographers finish their job there.
    I want to welcome our witnesses. I am hoping the separation 
between the witnesses does not indicate anything here. 
[Laughter.]
    We do have two votes scheduled at 3, and so rather than 
present my opening statement, I will just enter it into the 
record\1\ and get right to Ranking Member and to witness 
testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\2\

    Senator Peters. Well, thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Peters appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    The 2020 Census will serve as a roadmap for the next 
decade, determining how billions of dollars in Federal 
resources and congressional representation will be divided 
among the States, and the results of this count will 
undoubtedly impact every community in America. And every person 
must be counted.
    An accurate count is not just about understanding how many 
people live in our country. This is about ensuring that 
communities across America have access to the resources that 
they need to grow and to succeed.
    Public health officials use Census data to direct resources 
to combating the opioid crisis and other health emergencies. 
First responders and disaster relief agencies use this data to 
determine where they should direct emergency response efforts. 
Local businesses also use Census data to help decide where to 
invest in new factories and stores.
    In my home State of Michigan, $29 billion in annual Federal 
funding is on the line. For every person not counted, Michigan 
stands to lose as much as $1,800, funds that could be invested 
in health care, infrastructure, or public education. That is 
why it is extremely important that we get the most thorough and 
accurate count possible.
    It has taken the Bureau 10 years of careful planning and 
preparation to make this Census successful, but there is still 
more work to be done.
    The Census begins in January 2020 in remote Alaska and then 
in March everywhere else, and between now and then, the Bureau 
has to finalize its communications campaign, conduct robust 
community outreach, finish hiring trusted local staff, and 
perform final testing for dozens of critical information 
technology (IT) systems.
    As outlined in our Constitution, the purpose of the Census 
is to count every person in our country. But given the chaos 
and confusion the administration has generated as a result of 
their effort to include an untested citizenship question, the 
Bureau has significant work to do to restore public trust in 
the Census and ensure response rates do not decline as a 
result.
    We need to make sure that everyone is able to respond to 
the Census, through the new online form or in whatever way they 
can, including people without good Internet access, people in 
minority communities, in rural areas, and on reservations.
    From fair representation in Congress to the effective use 
of taxpayer dollars, each and every American has a personal 
stake in the results of the 2020 Census.
    I look forward to working with you to make sure that the 
count is accurate, that it is cost effective and is on 
schedule.
    Thank you, Mr. Chairman, and thank you to each of our 
witnesses.
    Chairman Johnson. Thank you, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses, so if you all stand and raise your right hand. Do 
you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Dillingham. I do.
    Mr. Goldenkoff. Yes.
    Mr. Marinos. Yes.
    Chairman Johnson. Please be seated.
    Our first witness is the Honorable Steve Dillingham. Mr. 
Dillingham currently serves as the Director of the U.S. Census 
Bureau. Previously, he was Director of the Bureau of Justice 
Statistics and the Bureau of Transportation Statistics. Mr. 
Dillingham.

 TESTIMONY OF HONORABLE STEVE DILLINGHAM, PH.D.,\1\ DIRECTOR, 
        U.S. CENSUS BUREAU, U.S. DEPARTMENT OF COMMERCE

    Mr. Dillingham. Good afternoon, Chairman Johnson, Ranking 
Member Peters, and Members of the Committee. Thank you for 
inviting me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dillingham appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    This is an important time for the Census Bureau and the 
2020 Census. We appreciate your continuing interest and your 
strong support. The Census clock is ticking, and we are more 
ready than ever to conduct a complete and accurate count.
    We thank the President. We thank Attorney General (AG) 
William Barr and Commerce Secretary Wilbur Ross for developing 
the path forward for enhancing the Nation's data and protecting 
confidentiality.
    We also thank our 2020 Census partners in every State 
numbering in the thousands and soon to be hundreds of 
thousands.
    I will highlight the road ahead and our increased 
readiness. The Census first count will begin in less than 6 
months in remote areas of Alaska, as the Ranking Member just 
mentioned. The nationwide county commenced in just 9 months, 
March 2020.
    It is my opinion, one shared by the experienced 
professional at the Census Bureau, that we have in place an A 
plan to conduct the Census accompanied by an A team to execute 
it. We are now entering what I call the A-level, high-
performance execution phase.
    Regarding the President's Executive Order (EO), we are 
carefully reviewing it. First steps include implementation, and 
we began that upon issuance, such as planning an interagency 
working group. We will update the Secretary and this Committee 
on our progress.
    The message of the 2020 Census is clear. It is easy, safe, 
and important. It is easy because of improvements in new 
technologies. People may complete this Census anytime, 
anywhere. We have Internet, phone, and paper self-responsive 
options. Our language assistance can reach 99.6 percent of the 
population. We will have trained enumerators to follow up with 
those who are late in responding. This will be the first Census 
ever where we expect most people to submit their data 
electronically and efficiently.
    The Census is safe. Census data remains secure, and 
confidentiality is protected. Stringent laws with criminal 
penalties of imprisonment and fines apply.
    Employees take a lifetime oath to protect confidentiality. 
The Census Bureau sets the highest standard and maintains a 
culture and practice of protecting confidential data. It will 
not be shared with any agency or anyone.
    The Census is more important than ever. As the Ranking 
Member just described, Census data is needed for apportionment 
and redistricting. It is used for Federal, State, and local 
governments to develop policies and allocate billions of 
dollars for programs and services, reaching millions, including 
the $29 billion that you mentioned in your statement, Ranking 
Member. It is used daily by people in making decisions that 
affect business, communities, and quality of life.
    Some recent innovations include new technologies for 
enhancing address canvassing, new options to reach hard-to-
count populations, more phone centers to provide customer 
assistance, a doubling partnership specialists to work with 
communities, and new technologies to support Census-taking 
processes. These and other innovations and time-tested 
operations have increased our confidence that we will deliver a 
complete and accurate count on time and on budget.
    Our priority is to reach hard-to-count communities. I 
continue to visit hard-to-count communities across the Country. 
They exist in all States. I have seen local partners reaching 
people in those communities in better ways. Counting children 
has been a perennial challenge. We are making improvements by 
working with others, ranging from pediatricians to the public 
schools.
    We have dedicated efforts to reach American Indian and 
Alaska Native communities, including the Navajo Nation, which 
is roughly the size of West Virginia.
    We have plans to reach the homeless and others. Everyone 
must be counted. Partnership specialists from local communities 
with different backgrounds help this process. We also have an 
integrated research-based outreach campaign with messages that 
resonate with diverse communities.
    Cybersecurity is paramount. We have a well-designed and 
tested cybersecurity program. Data is encrypted at every stage. 
We work closely with the Department of Homeland Security (DHS), 
the intelligence community (IC), and industry experts to 
identify and response to threats. We manage risk, assist with 
oversight in test systems for security, functionality, and 
scalability.
    External oversight and accountability an support are 
valued. First, the Bureau is committed to assisting this 
Committee and others in Congress in addressing matters of 
interest or concern. Oversight is deeply appreciated.
    Second, we appreciate the work of the Government 
Accountability Office (GAO) and the Department's Inspector 
General (IG) in our preparations. I discussed the 2020 Census 
being on the GAO High-Risk list with the Comptroller General. 
The designation is appropriate in light of the scope, 
complexity, and importance of the Census. We are committed to 
GAO's key components of a healthy program. We also meet 
regularly with the Office of Inspector General (OIG) to discuss 
issues, concerns, and to receive advice.
    Third, we appreciate the financial support we receive on a 
bipartisan basis from Congress. Funding certainty is needed 
throughout the 2020 Census. We appreciate support in all forms 
from all sources.
    Recently, the IG expressed her interest in working with us 
to promote the safety of personnel.
    Commerce components have expressed a desire to help as 
well, as have other Federal agencies, including the Department 
of Health and Human Services (HHS) and the Peace Corps.
    We thank Members of Congress and others who are assisting 
with our hiring recruitment and who serve as trusted voices.
    The 2020 Census is clear. It is easy, safe, and important. 
As we enter our high-intensity sprint, hiring goals are being 
met. We are on budget. Our systems are safe and secure. We are 
following best business practices and have the right people in 
the right positions doing the right things.
    I am confident that we are more ready than ever. Canvassing 
begins next month. The time is now. The duty is ours, and while 
much work remains to be done, we remain on track to achieve a 
complete and accurate count.
    Thank you for your support, and I look forward to your 
questions.
    Chairman Johnson. Thank you, Director Dillingham.
    Our next witnesses are from the U.S. Government 
Accountability Office, and they will be sharing testimony.
    So you have Robert Goldenkoff. Mr. Goldenkoff is Director 
of Strategic Issues for the U.S. Government Accountability 
Office. In his role, he oversees a portfolio of work aimed at 
improving the Federal statistical system.
    Our second witness from GAO is Nicholas Marinos. Mr. 
Marinos serves as the Director of Information Technology and 
Cybersecurity with GAO, and Mr. Marinos manages audit teams 
that perform government-wide cybersecurity, privacy, and data 
protection reviews across all the major Federal agencies.
    I believe we are starting with Mr. Goldenkoff.

   TESTIMONY OF ROBERT GOLDENKOFF,\1\ DIRECTOR OF STRATEGIC 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldenkoff. That is correct.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Goldenkoff appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member Peters, and Members of the 
Committee, GAO is pleased to be here today to discuss the 
Census Bureau's readiness for the 2020 head count.
    As you know, in recent years, we have identified a number 
of operational, IT, cybersecurity, and other challenges that 
raise serious concerns about the Bureau's ability to conduct a 
cost-effective enumeration.
    In February 2017, we added the 2020 Census to GAO's list of 
high-risk government programs, and it remains on our High-Risk 
list today.
    My remarks this afternoon will focus on two such 
challenges--implementing design innovations aimed at 
controlling costs and developing reliable cost estimates that 
better account for risks and inform annual budget estimates.
    My colleague, Nick Marinos, will then discuss the 
challenges the Bureau faces in implementing and securing 
critical IT systems.
    The bottom line is that as the countdown to Census Day 
grows short, the Bureau has made important progress toward 
mitigating some of the risks facing the Census, and we are 
encouraged by the Commerce Department and Census Bureau's 
leadership commitment toward carrying out a cost-effective 
enumeration.
    Still, the Bureau estimates that the Census may cost as 
much as $15.6 billion, a $3 billion increase over the Bureau's 
original estimate, and significant uncertainties lie ahead.
    For example, with respect to design innovations, to help 
control cost while maintaining accuracy, the Bureau will use 
new procedures and technology for 2020, including greater use 
of automated data collection methods, administrative records in 
place of data collected by enumerators, verifying most 
addresses using aerial imagery, and other in-office procedures 
rather than by going door-to-door as was done in past 
enumerations, and allowing households the option of responding 
to the Census via the Internet.
    These innovations show promise for controlling costs, but 
they also introduce new risks in part because they have not 
been used extensively, if at all, in prior enumerations. As a 
result, testing is essential to ensure that key IT systems and 
operations will function as planned; however, citing budgetary 
uncertainties, the Bureau scaled back operational tests in 2017 
and 2018.
    Without significant testing across a range of geographic 
locations, housing types, living arrangements, and demographic 
groups, operational problems can go undiscovered, and the 
opportunity to refine procedures and systems could be lost.
    Another risk factor is the reliability of the Bureau's 2020 
life-cycle cost estimate. In August 2018, we found that 
although the Bureau had taken steps to improve its cost 
estimation process compared to prior versions, it still needed 
to implement a system to track and report variances between 
actual and estimated cost elements.
    The Bureau released an updated version of the cost estimate 
last night. We plan to review it for any changes as well as the 
extent to which the Bureau implemented our open 
recommendations.
    In short, while the Bureau and Department of Commerce have 
taken important steps to keep preparations for the Decennial on 
track, additional steps are needed. For example, as of June 
2019, we have made 106 recommendations related to the 2020 
Census. Commerce has generally agreed with these 
recommendations and has generally taken actions to address many 
of them.
    The Bureau has implemented 74 of the recommendations, and 
31 remain open.
    Going forward, to help ensure a cost-effective head count 
in the months ahead, continued leadership attention and strong 
congressional oversight will be needed to help ensure that the 
Bureau continues to implement our recommendations, that key 
components and systems work as required, that the operations 
stay on schedule, and management functions follow leading 
practices.
    This concludes my prepared remarks. I will now turn it over 
to my colleague, Nick Marinos, who will discuss the risks 
facing the Bureau's IT and cyber efforts.
    Chairman Johnson. Mr. Marinos.

   TESTIMONY OF NICHOLAS MARINOS,\1\ DIRECTOR OF INFORMATION 
 TECHNOLOGY AND CYBERSECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Marinos. Thank you.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Marinos appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member Peters, Members of the 
Committee, thank you for inviting GAO to discuss the Bureau's 
efforts to prepare for the 2020 Census.
    As Robert mentioned, our most recent High-Risk Report 
highlighted a number of IT-related challenges facing the 
Bureau. These included IT systems readiness and cybersecurity. 
The bottom line is that these challenges still remain today, 
and we believe it is important for the Bureau to overcome them 
prior to the 2020 Census.
    Starting with systems readiness, the Bureau plans to rely 
heavily on IT for the 2020 Census, including through the use of 
52 systems it plans to produce over the course of multiple 
stages of Census operations. Many of these systems will be 
deployed multiple times in order to add needed functionality 
over the course of 16 operational deliveries.
    The Bureau has delivered the first group of systems to 
support early hiring and training, and the next few months, we 
will see key testing and production deadlines for many 
additional systems.
    However, our ongoing work has determined that the Bureau is 
at risk of not meeting key IT milestones for five upcoming 
operational deliveries. These include deliveries in support of 
Internet self-response, a new innovation that the Bureau 
intends to rely on for a significant portion of responses to 
the Census, and recruiting and hiring for peak operations, 
which includes hiring hundreds of thousands of temporary 
employees to assist with counting the population. The Bureau 
needs to closely monitor these schedule risks in order to 
ensure that they are all delivered on time.
    Regarding cybersecurity, the Bureau is working hard to 
assess security controls, take needed corrective actions, and 
gain the proper signoff to ensure that each system is ready for 
operations. Although a large majority of the 52 systems have 
received at least an initial authorization to operate, 
significant assessment work remains.
    According to the Bureau, nine systems will have to have 
their security controls reassessed to account for additional 
development work prior to the 2020 Census, and five systems are 
still awaiting that initial authorization.
    I would like to note that we have been encouraged that the 
Bureau is coordinating closely with the Department of Homeland 
Security on cyber issues. DHS has provided this assistance 
through cyber-threat intelligence and information sharing and 
through conducting incident management and vulnerability 
assessments, among other activities.
    All of these internal and external assessment efforts, 
including recent evaluation performed by the Commerce 
Department's Office of the Inspector General, are vital, 
especially since the majority of the Bureau's systems that will 
support 2020 operations contain personally identifiable 
information (PII).
    At the end of the day, however, they will only be as 
valuable as the corrective actions the Bureau takes in response 
to them. We recently made two recommendations to the Bureau 
calling for management attention in this area. The first called 
for the Bureau to address its security to-do list in a timelier 
manner, and the second called for the Bureau to establish a 
more formal process for tracking and completing actions in 
response to DHS assessments.
    The Bureau reported that it is working to implement our 
recommendations. If fully implemented, the Bureau will be 
better positioned to ensure that assessments will result in 
high-priority improvements to its cybersecurity posture.
    In summary, we are running short on time before key Census 
operations begin. Moving forward, it will be critical for the 
Bureau to devote enough attention and effort to completing IT 
system development activities and implementing cybersecurity 
improvements in a timely and prioritized way.
    Mr. Chairman, this concludes my statement.
    Chairman Johnson. Again, I want to thank all the witnesses.
    Mr. Dillingham, just real quickly, you sounded pretty 
confident, which I like to hear. There are still issues or 
concerns. Would you like to start off by just addressing some 
of the issues raised by GAO in their testimony?
    Mr. Dillingham. Well, I think I--and we do agree. We agreed 
with the recommendations, and they say we are making progress. 
And the faster we make progress the better.
    At the same time, one of the things that we are doing at 
the Census Bureau--their concerns generally represent potential 
risk, and we are engaged in risk management at the Bureau in 
all sorts of ways with our IT systems, with our cybersecurity, 
and with our operations as well.
    So, in general, what I would like to say is we are managing 
the risk. This is a mammoth operation. There are many parts to 
this operation, and we have a great team in place. And we are 
making a lot of progress in managing our risk.
    There will be risks throughout the 2020 Census, and there 
will also be risks in the Census Bureau continually.
    As a matter of fact, I think the guidance from GAO is very 
helpful because it really reinforces the need for risk 
management.
    So, in general, let me say that we agree that there are 
risks, and we are managing those risks. And we are making 
progress, and we will continue to make progress.
    Chairman Johnson. So I would kind of like to just get a 
response out of GAO.
    You are obviously laying out these issues. You are never 
going to mitigate all risk. You cannot eliminate all of it. You 
can manage it. Are you fairly confident that the Census Bureau 
is managing those risks, that we will be able to move forward 
and have an accurate Census? What is your level of confidence?
    Mr. Marinos. Yes. I think it is encouraging that the Bureau 
has agreed with the recommendations that we have made. Our 
recommendations have been focused on process improvements. So 
that is to say we have acknowledged in prior reports the 
establishment of a risk management framework at the Bureau. So, 
in particular, with respect to cybersecurity, we have seen the 
Bureau take many actions to assess what are the highest-risk 
areas and then take actions to address them.
    Our process improvements are really aimed at recognizing 
the fact that there is limited time until Census day, limited 
resources, and so the importance of really ensuring that 
priority is placed on the highest and most critical 
vulnerabilities and improvements that are needed.
    Chairman Johnson. Maybe the better way of putting this, 
what level of concern should this Committee have about the 
success of the Census in 2020? Should we have a relatively high 
level of confidence? Again, not saying it is going to be 
perfect, but are we facing any kind of disasters you are 
concerned about?
    Mr. Goldenkoff. I would say trust and verify and look for 
some key indicators. As Nick said, look for the testing and the 
actions that they are taking to correct some of the IT and 
cybersecurity issues, continue to monitor the Census 
preparations--now that the Census is going live. Look to see if 
the Census stays on schedule. All these key operations need to 
take place when they are supposed to. Because of statutory 
deadlines, there is no opportunities for resets, do-overs.
    If the Census Bureau gets a decent response rate, and that 
there is no cybersecurity incident or IT shortfall, I think the 
Census Bureau will be positioned for a cost-effective head 
count.
    So I do not think we are looking at disaster, but there 
still a lot of work that needs to be done going forward. And 
the Census Bureau is aware of that.
    Chairman Johnson. You talked about cost effective. One of 
the things that will drive cost effectiveness will be the 
success of the self-response, online self-response.
    In order to promote that, what is the Census Bureau doing? 
Do you have a planned promotion campaign, advertising, how much 
you are going to be spending?
    Mr. Dillingham.
    Mr. Dillingham. Mr. Chairman, all of the above and more. 
This is going to be the largest outreach campaign that the 
Census Bureau has ever conducted, about a half-a-billion-dollar 
outreach media campaign. It will be television. It will be 
radio . It will be print. It will be social media, et cetera.
    The messages we are presenting are consistent with what I 
had just summarized as easy, safe, and important, and we are 
going to particularly stress the safe. I think it is very 
important that we stress the safety factor, that your data is 
protected, confidentiality is protected. We have a history of 
protection. We have the laws, everything in place, to protect 
the data.
    But, at the same time, in using the new options we have, it 
is very important that everyone realize that paper options 
still exist, but in addition to that, we now have the Internet 
option and the telephone option. And in the 2018 End-to-End 
Test, actually most people responded by Internet. I am not 
saying that the same demographics exist everywhere, but that 
was an instance where we conducted the test without publicity, 
without media, and without outreach. And we got over 50 percent 
of the people responding on the Internet. I think that is one 
of the reasons that the public needs to understand and take 
advantage of.
    It also may get into a discussion of reaching the hard-to-
count, and it is very important with the hard-to-count, even 
though there are rural areas and there are Tribal areas where 
connectivity may be an issue or definitely an issue as well as 
even telephone coverage at times.
    At the same time, these options allow us to take the 
technology to go into those communities to reach the hard-to-
count. They do not have to come to our area office to get 
assistance. They can get it by phone. They can respond by 
phone, and yes, they can do it on the Internet. And these are 
two important new developments that I think will make a world 
of difference. It is more cost effective. It saves the taxpayer 
dollars, and it is far more efficient.
    Chairman Johnson. The Internet has progressed a lot since 
the last Census. The public has obviously gotten much more used 
to it.
    To me, the online does represent the risk from the 
standpoint do we have the capacity to handle it, and we saw 
that with healthcare.gov. The system just simply was not set up 
to handle the initial response.
    So that is all I ask GAO: Do we have the capacity? Are you 
confident about that as well as in terms of cybersecurity? That 
would be the portal that the public can certainly get into the 
Census Bureau. Do we have the firewalls within that portal as 
well?
    Mr. Marinos. Yes, Mr. Chairman. I believe so. I think the 
Bureau is taking the right steps toward ensuring that they have 
the bandwidth that can handle a potential spike and the number 
of respondents that may come in through the Internet. They are 
making efforts to secure their systems as well.
    Two quick points on this are going to be, though, that 
there is a lot of work still left to do. There is a lot of 
testing not only on specific systems, but to make sure that 
those systems work well together, and then also to have a 
backup plan, so a disaster recovery plan as well. We are 
waiting to get more details from the Bureau on plans with 
respect to that.
    Chairman Johnson. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    I just want to expand on the issue of hard-to-count and the 
fact that we are relying so much on the Internet initially, and 
I know you went through all of the steps that will be 
available, the other options that will be available.
    But the question is--and maybe to be more specific so I get 
a better sense of this, because in Michigan, we have 800,000 
people who are considered hard to count. Many of them do not 
have access to the Internet, certainly broadband issues.
    But how do you follow up with folks who do not have that 
access? When will you know they do not have access? How do you 
then reach out in person? How are they going to know they are 
going to need to do it by phone or by mail? It still seems to 
be a very person-intensive type of process, and you have to 
identify who does not have access to the Internet. How are you 
actually doing that? Help me walk through the process as to how 
we are going to ensure this, please.
    Mr. Dillingham. Senator, let me give you the example of 
Detroit.
    Senator Peters. Yes.
    Mr. Dillingham. We have been to Detroit. We met with the 
local leaders, some Members of Congress and others, and I am 
using Detroit. I do not mean it in any way that maybe anyone 
would disagree with in Detroit. That is a lot of wonderful 
things going on with revitalization.
    Senator Peters. Absolutely.
    Mr. Dillingham. However, Detroit has lost a million 
population since 1950. Each Decennial Census, their population 
has gone down. They were at over 1.8 million people and are now 
at just over 800,000, and it is a very large geographical area 
of more than 140 square miles. So some of those neighborhoods 
are the hard-to-count neighborhoods.
    Senator Peters. Right.
    Mr. Dillingham. And so what we did in Detroit is with the 
Complete Count Committees and the partnerships that we have in 
Detroit--I went out to view those hard-to-count, and we rode 
around on a Sunday morning. And we went to the civic centers, 
and Detroit has divided its city into about seven districts. 
And they are reinvigorating a sense of community. They have 
community centers, et cetera. The churches are very vibrant, 
even though the populations have dropped.
    We can take the technologies into those areas, and we are 
working with the partners in the city of Detroit. So, working 
together, our partnerships specialists and these support groups 
and partners, which are many in Detroit, we can go right into 
those hard-to-count communities.
    I have seen the boarded-up houses. I have seen the homes 
that were destroyed, and we know there is homeless populations 
there. But we can reach them better than ever.
    Now, I will mention one thing in this area, that we have 
doubled the number of partnership specialists who we see 
working directly with those communities can identify these 
needs and respond.
    The Appropriations Committee asked us if we received 
additional funding, what would we do, what would be our 
priority, especially in rendering additional assistance, and we 
developed a potential plan that is not in our budget. It is a 
$90.5 million figure to it, where we would take our recruiters, 
our temporary employees, and we would allow them to continue by 
helping our partnership specialists in going into those 
communities. And that would increase the workforce by 5,000.
    So it is not the Federal presence that makes a difference, 
but the Federal presence helps. So when working with our 
partners in those jurisdictions, we do take the technology to 
the hard-to-count, and we also will be in our commercials 
tailoring it to the hard-to-count groups, to the ethnic groups, 
to different age groups, et cetera, and reminding people, 
please always count your children, for example.
    The counting of children, I am amazed but has been a 
problem since 1850 when it was recorded. It is still a problem. 
We are not sure of all the dynamics, but the changing household 
structure in our modern life and other things, if children are 
living with relatives or others, they sometimes do not put them 
down. And we need to make sure we are counting all the 
children. We are partnering with the Casey Foundation and 
others, pediatricians. We are working with all sorts of groups 
to make sure that all people are counted.
    Senator Peters. I am pleased to hear your partnership 
approach because that is absolutely critical. The people who 
know those communities the best are a number of organizations 
that you mentioned. The churches in particular that are closely 
connected in a lot of ways are the heart and soul of those 
communities. Their assistance is going to be essential.
    I know you have been making great strides in Detroit in 
some of our other urban areas. That sounds as if that will 
continue to be a central focus of the Census going forward.
    Mr. Dillingham. Yes. I mean, we are still in the process.
    One of the things that I want to mention is that we have 
the capability on our website so that public and all 
jurisdictions across the country can monitor their self-
response while the Census is going on, so we can target those 
hard-to-count areas electronically. It is on our website. You 
can find the tracks and see what the response rate is on a 
daily basis.
    Senator Peters. Right. Great.
    The other issue that we have to deal with is trust, 
obviously, in the Census or it is not going to be accurate. 
Unfortunately, many Americans mistrust government just 
generally, and the Bureau must focus its public communications 
and outreach to build that kind of trust.
    Mr. Goldenkoff, the Bureau and the GAO have identified 
negative public perception of the Census as one of the top 
risks. I think you have talked about that in some of your 
opening comments as well. That could increase cost as well. 
There are many folks that think some of the chaos that we have 
been seeing lately regarding questions on the Census is adding 
to mistrust as well.
    My question to you is, Do you believe that there is a 
significant public perception risk that the Bureau must deal 
with and counteract in 2019, this year, and what should they be 
doing?
    Mr. Goldenkoff. Absolutely, there is definitely a public 
perception risk. We have all seen the public dialogue of late. 
Certainly, it has not created an environment certain to a 
complete count. But I think as importantly, it is the Census 
Bureau's own study when they looked at barriers and attitudes 
and motivators to participate in the Census. That is exactly 
what they came up with. They did a survey of around 50,000 
people. They also conducted focus groups, and some of the top 
three barriers relate to trust. And that is what the Census 
Bureau needs to overcome.
    For example, there are concerns over data privacy and 
confidentiality. There are concerns, fear of repercussions, 
that if you participate in the Census, something bad will 
happen to you. And then the third factor is distrust of all 
levels of government. So even without the current issues going 
on in the world, there has always been this distrust of the 
government. When the partnership specialists hit the street, 
when they start talking to constituents, that is, I think, one 
of the greatest functions that they provide because they are 
the trusted voice in the community. And they can reach out to 
people in their community, and we have seen in past Censuses 
that they do a fantastic job of that. So that is going to be 
the challenge going forward.
    Senator Peters. But given the recent incidents you 
mentioned, we have seen an increase of confusion related to 
some of the chaos we have seen. Should they be taking action 
now?
    Mr. Goldenkoff. I think the Census Bureau is doing that.
    Senator Peters. At an elevated level, though, because of 
what has happened?
    Mr. Goldenkoff. I think so, and I think one of the things 
that has us concerned is the hiring, the rate of hiring of the 
partnership specialists. Their goal was to hire 1,500 
partnership specialists by, I believe, the end of June, and 
they have made hiring offers to--813 now have come on board out 
of that, and 782 are in the queue. So the full complement of 
partnership specialists will not come on board until as late as 
September 1. So they are already behind the curve.
    As you mentioned, this is a very labor-intensive operation. 
When you think 1,500 partnership specialists, that does sound 
like a lot, but when you think of both in terms of the 
populations that they want to reach nationwide, a goal of 
300,000 partnerships, and if you think the number of counties 
that there are in the country, it is roughly two partnership 
specialists per county.
    And on top of that, they are also doing clerical chores too 
as well. So they definitely have their work cut out for them, 
and they are already starting a little bit behind the curve. 
And so one of the things we will be looking at going forward is 
the extent to which they are able to hire at that pace, get 
everybody on board quickly, get up to speed, retain those 
people, and I would say if the money is there, certainly having 
additional partnership specialists would certainly help the 
case.
    Senator Peters. Alright. Thank you.
    Senator Lankford [presiding.] Dr. Dillingham, I am going to 
run through about 100 questions with you. So we are going to 
hustle through several here. Let me get some concise answers.
    Talk me through the breakdown of what you anticipate your 
email connections or reminders, web-based reminders, phone 
calls--how will people--what is your first estimate, besides 
paper, of how people will actually fill out their Census forms?
    Mr. Dillingham. Senator, in filling it out--and really the 
experience we have would be the Rhode Island experience where 
about a little over 50 percent self responded, and this is 
without the outreach campaign.
    Senator Lankford. And this is web-based, them logging into 
a site?
    Mr. Dillingham. I cannot say any have done it by----
    Senator Lankford. No, I am just saying what do you 
estimate? So if they are still logging into a site, is it an 
app that they are downloading?
    Mr. Dillingham. It could be that. We do not really have an 
official estimate.
    The telephone usage there was much more than you might 
think. It is close to 7 percent by telephone.
    Senator Lankford. And that is getting a number, punching it 
in, and talking to someone, or it is all by punching it in?
    Mr. Dillingham. Actually, they are punching in and filling 
in the forms by their smartphone. We call that Internet, and if 
they are just going to the phone assistance center, that is 
another proposition where they can get advice for filling it 
out on the Internet, or they can give the information right 
there on the phone to the person who will record it for them.
    Senator Lankford. So let me review. On your phone or on 
your computer, actually logging into a certain place saying 
this is my address, this is who I am, filling out the form, or 
going on to the phone and actually calling in and talking 
someone through?
    Mr. Dillingham. Exactly.
    Senator Lankford. OK. And then if that does not work, then 
you are actually getting a physical form? When is a form 
actually physically mailed to you?
    Mr. Dillingham. For about 20 percent of the jurisdictions 
where there is low connectivity, we will send the form out with 
the first mailing. There is a total of five mailings if we do 
not hear from you. You are going to receive five mailings.
    Senator Lankford. First mailing starts when?
    Mr. Dillingham. The first mailing would start in March, and 
they really--exact days, but every week, you are going to get a 
mailing, if we do not hear back from you.
    The fourth mailing usually would be when you get the actual 
form. So there is an encouragement. You can go do it on the 
Internet or by phone, or you will get a mailing.
    Senator Lankford. Go online or go on the phone. Do it, do 
it, do it, do it.
    Mr. Dillingham. That is correct.
    Senator Lankford. And if you have not by the fourth time, 
you are going to get a form that says can you fill this out and 
send it back in.
    Mr. Dillingham. That is correct.
    Senator Lankford. Then after that, someone physically----
    Mr. Dillingham. And then there is another reminder.
    Senator Lankford. Right.
    Mr. Dillingham. And sometimes when they receive the 
reminder, they will still do it, and there is an overlap 
between that and what we call the nonresponse follow up. Non-
Response Follow-up (NRFU) is the phraseology we use within the 
agency.
    Senator Lankford. That is a great one.
    Mr. Dillingham. Sometimes, too, when the person first goes 
to the door in the nonresponse follow up and puts a notice on 
the door, ``Hey, we would like to talk to you about the 
Census,'' they will get online and they will----
    Senator Lankford. They can fill it out.
    Alright. So let me ask this question. I do not need an 
answer to it. I just want to be able to drop this out for you 
and for GAO.
    For years, I have asked the question. April the 1st is 
Census Day for us officially. April the 15th, there is also 
another large event that happens nationwide every single year, 
not every 10 years. It would be nice if it is every 10, but it 
is every single April 15th. There is also a nationwide event.
    We have about 140 million people that do a filing with the 
Internal Revenue Service (IRS). 127 million of those are 
electronically. So, round numbers, around 140 million file it, 
127 million electronically. That seems like a unique 
opportunity for Census and for IRS to cooperate together once 
every 10 years to see if the Census information could not be 
added to their IRS form and to get a very large group. 127 
million households is a pretty big catch to have by April the 
15th and then to go chase after that. Tell me why that would 
not work.
    Mr. Dillingham. Senator, I am not here to tell you why it 
would not work, but I would tell you that we are here to 
explore whether it will work and how it can work.
    Senator Lankford. OK. Obviously, that is a 2030 question, 
but if we do not start setting that up now, we are not going to 
get there.
    But we spent how much on the Census this year? What is your 
estimate for total cost?
    Mr. Dillingham. It is close to $15 billion, Senator. I mean 
for the total life-cycle cost.
    Senator Lankford. Right. My hope is that if we can gather a 
significant number of people by combining their IRS filing and 
their Census filing, we can deal with a lot of personnel issues 
on that every 10 years. I do not understand why we would not do 
that. I only bring that to you to say I know right now the fire 
that is in front of you is next year.
    Mr. Dillingham. Yes, sir.
    Senator Lankford. But as you discuss and do after-action 
reports, I would love for someone to get into the conversation, 
could these two be combined.
    Mr. Dillingham. Senator, let me just tell you this at this 
point. The different permutations or ways that might be 
achieved have yet to be explored and analyzed, but I have been 
informed that there have been some conversations with private 
tax preparer services already, for example, that they could 
have the link at the end of the electronic form to the Census. 
And that would be maybe a starting point for getting to the 
goal that you mentioned.
    Senator Lankford. Right. There is a pretty straightforward 
way to be able to do this. Again, there is a tremendous number 
of people that are used to electronically filing on their 
taxes, and we could gather all that Census information at the 
same time.
    Let me ask you a question about hiring, as it was just 
brought up by GAO. It is actually one of my questions on it.
    2010, hiring temporary workers for the Census was much 
easier because our unemployment rate was so high in 2010. Our 
unemployment rate is historically low right now, some of the 
lowest in 50 years. We have millions more job openings than we 
have people to fill it. How is that going for you, just in 
hiring and finding temporary workers?
    Mr. Dillingham. Senator, so far, we have been pleasantly 
surprised.
    One of the reasons is we hire people on a temporary basis, 
and so we are really not--the unemployment pool is not our--
perhaps not even our primary pool. I would have to study that.
    But we are getting retirees. We are getting people that 
already work. We are getting Uber and Lyft drivers and 
different people that work part-time jobs and look forward to 
these jobs.
    In terms of the applicant pool, actually we have extended 
offers to more than 1,600 partnership specialists. So we are 
waiting to see how soon that will pan out.
    Senator Lankford. To get the rest of the information.
    Let me ask you one more question.
    Mr. Dillingham. Sure.
    Senator Lankford. Because so much is going to be done by 
web-based and on the phone this next time, which is good. We 
should do that. That will help us tremendously with efficiency. 
It also opens up the opportunity for phishing scams, for people 
to put up fake sites and say this is the Census site, to email 
out to their blast lists, do robocalls out to individuals and 
say, ``Give us all your information. We are the Census.'' What 
are we doing on the Census level to get information to people 
out to say, ``This is official and this is not. This is 
somebody just phishing for your information?''
    Mr. Dillingham. Certainly, that will be one of the things 
that will be part of our outreach campaign. It will be part of 
our social media campaign, and we are also working with the 
agencies to address that. So we are alerted whenever there is a 
fake website or a phishing activity. We get alerted, and we 
take immediate action. And our IT and our cyber folks are 
working on that every day.
    Senator Lankford. OK. Thank you. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you.
    Welcome to all of you, and thank you so much for your hard 
work.
    Dr. Dillingham, in New Hampshire, we were recently reminded 
of how every level of government has to prepare against cyber-
attacks in order to make sure the government operations remain 
constant.
    Just a few weeks ago, the Stratford County government 
experienced a cyber-attack that took their systems offline. 
However, the Stratford County government had prepared for a 
cyber-attack scenario ahead of time. They were able to 
implement a continuity-of-operations (COOP) plan in this case 
by reverting to pen and paper, allowing the government to 
continue its essential functions.
    While this New Hampshire county-level government operates 
on a different scale, to be sure, than the 2020 Census, this 
event highlights an important lesson on resiliency at all 
levels of government.
    So, Dr. Dillingham, what has the Census Bureau done to 
improve the resilience of the 2020 Census? Does the Census 
Bureau have a continuity-of-operations plan? Should the online 
questionnaire suffer a cyber-attack?
    Mr. Dillingham. Senator, we do have a continuity-of-
operations plan. The cyber-attacks, primarily, our planning is 
to mitigate any damage. So we have built in safeguards that 
these parts of our system can immediately be closed down, and 
any issues that we experience can be contained. So that is part 
of our mitigation strategy.
    We do not, as yet, have a plan that the entire system, if 
it was to go down, with specificity--and we are looking at what 
these dramatic options might be, but we are very carefully 
working on--I will not say the more realistic but the more 
probable threats that can occur in both preventing them and 
containing them when they do occur.
    And we are following the best practices and working closely 
with the intelligence agencies, DHS, and the private sector as 
well, and we have relationships with them. So even the private 
sector will help us to identify these threats when they might 
occur.
    So we will be looking at the entire range. We do have a 
continuity-of-operations scenario, but I would like to examine 
more carefully the catastrophic scenario that you might be 
alluding to.
    Senator Hassan. I would like to follow up with that and 
with GAO on that.
    In the past, if any questions arose about the integrity of 
Census data, there was a paper trail of all Census reports. 
Obviously, now with this online portal and systems, the Census 
Bureau needs other mechanisms for keeping these records.
    In the event of a cyber incident, is part of your plan to 
go back--or I guess the question is, How would you go back and 
validate Census responses if you find that the information you 
have collected online has been potentially compromised?
    Mr. Dillingham. Senator, some of the specifics, I would 
like to get back to you with.
    Senator Hassan. Yes.
    Mr. Dillingham. But we do have redundancies built into our 
system, and we do have information stored, for example, on the 
cloud as well as at a facility. So we do have redundancies 
built in, but I would rather discuss those maybe with just you 
and your staff.
    Senator Hassan. Right. I would look forward to that and 
discussing it with GAO because I think, again, just having the 
planning in place and really thinking this through is going to 
be critically important.
    I want to move on to one other topic. We have talked about 
some of the hard-to-count populations. It is obviously very 
important as we talk about that to make sure that the Census is 
accessible to everyone. This is particularly important for 
individuals who experience disabilities, who may face 
additional barriers to successfully complete a traditional 
Census form and be counted or go online. If you are not able to 
type, that presents its own kind of challenges.
    In addition, because the Census does not ask about 
disability, it is impossible to measure an undercount of people 
who experience disabilities, similar to undercounts that may be 
calculated for other hard-to-count populations.
    So, Doctor, can you explain how the Census Bureau plans to 
address this particular concern, including any targeted 
outreach to individuals who experience disabilities, and how 
individuals who are self-responding may receive assistance to 
complete their Census form when that form is not accessible?
    Mr. Dillingham. Senator, we do a lot of that through our 
partnerships, and we will be partnering with organizations that 
have as a primary interest and as a side interest reaching the 
populations, the disabled, and those with other forms of 
disabilities.
    We also, to some extent--our backup is the enumeration. 
Now, when we do the enumeration, if they are not able to submit 
either electronically, by phone, or by paper and we come 
knocking on the doors--and they could be in a group facility, 
for example----
    Senator Hassan. Right.
    Mr. Dillingham [continuing]. Or they could be an 
individual's residence--we will find a way to get those people 
to be able to answer the Census.
    I would compare it to a very rare language. Even though we 
are going to have assistance in many different languages, there 
are communities that I have heard of where there is less than 
200 people maybe in this country that speak that language, and 
what we do is we reach out to the community, to the 
universities. We find the special talent that we need, and we 
would do that with people that suffer from visual disabilities 
and other physical disabilities as well and reach out. And we 
do have mechanisms by which in the enumeration we can reach 
those very hard--groups to count, and we have ways of getting 
the special assistance to them.
    Senator Hassan. Well, that is reassuring to hear and I 
think what will be important, because I think no one doubts the 
Census' intentions here or desire to reach all of these 
communities and people who may need this kind of assistance.
    I think to the degree you all can be transparent about 
where your partnerships are, there are a lot of people in the 
disability community who would be very willing to make sure 
that they are bolstering those partnerships too. I would look 
forward to further discussion about that.
    Mr. Dillingham. Thank you.
    Senator, let me just clarify we already have some of those 
partnerships----
    Senator Hassan. I am sure you do, yes.
    Mr. Dillingham [continuing]. And we will be putting our 
partnerships on the website and the Internet, and we will make 
sure that the public is aware of that.
    Senator Hassan. Alright. Thank you so much.
    Thank you, Mr. Chair.
    Chairman Johnson [Presiding.] Senator Hawley?

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Mr. Dillingham, let me ask you about the 
strategies related to counting, for the Census counting in 
rural areas, particularly portions of my State of Missouri.
    So, for instance, almost 550,000 people in Missouri are 
considered hard to count. That is almost 9 percent of my State 
in multiple counties, by the way. What happens in those areas 
where you not only have a rural population where maybe the mail 
is not--there are nontraditional mailing addresses and so 
forth, but then you also have limited Internet access?
    So, for instance, from 2013 to 2017, over 20 percent of 
Missouri's households either had no Internet subscription or 
only a dial-up subscription. What is the strategy for counting 
there?
    Mr. Dillingham. Senator, we have a multifaceted strategy, 
particularly in the rural hard-to-count areas. One is that we 
have already studied the Nation and those areas that have 
limited connectivity, and for 20 percent of the Nation, as I 
mentioned, we are going to mail out the questionnaire in the 
first instance to them.
    One of the things in the time I did not have to address in 
talking about the partnership specialists, the partnership 
specialists are really our connection to the community. The 
community, we envision more than 300,000 partnerships. It can 
range from the local barber shop to a national organization, 
and we have the Complete Count Committees.
    The last I looked, I think we have 2,500 Complete Count 
Committees already. Every State has a Complete Count Committee, 
with the exception of two, and we hope they will come on board 
soon. But they are local governments, and they have rural 
populations. But their local governments have many Complete 
Count Committees.
    So our partnership specialists are really our connector to 
the Complete Count Committees, to the various groups, the 
nonprofits, the service organizations, the partners across the 
Country, and I must confess to you, we could not conduct this 
Census without the assistance and of our partnerships and the 
people that are helping us.
    So what we want to do is have that multiplier effect 
through our partnership specialists, but in addition to that, 
we have the outreach media campaign. And in a lot of the rural 
areas that I have learned by visiting them, some listen to the 
radio more than they watch TV and different things like that. 
So we have to be able to do that and provide the media that 
reaches them best.
    And then assuming we have this multiplier effect with 
either partnership special assistants or using the community 
groups, we can take the technology to them.
    I went to one jurisdiction in New Mexico, very rural area, 
and Senator Udall from New Mexico went with me. That was an 
extreme example of a hard-to-count area, and that is why we 
went there. And we determined to get self-reporting, and that 
the only two mechanisms that we saw at the time was the local 
grocery store and service station as well as the church. This 
was a community that did not want people coming in, and there 
were all sorts of barriers to people coming in. They did not 
trust the government, and so when we saw that, we are working 
with our partnership specialists. We need efforts at the 
grocery store. We need efforts with the local churches.
    Now, that is an extreme example. I am not sure if that is 
in Missouri, but I know there are hard-to-reach areas of 
Missouri. And we will work with the local officials, and we 
will work with the groups to make sure we reach them.
    Senator Hawley. Thank you very much. That is very helpful.
    Let me ask you about the effect of natural disasters and 
accuracy in Census counting. When you have flooding, when you 
have tornadoes that displace people, sometimes for long periods 
of time from their homes, particularly true with flooding, but 
it can also be true with rebuilding after a tornado, both of 
those natural disasters have hit my State and particularly 
devastating effect. We have lots of people who are displaced in 
the State. How do you tackle that and account for that 
displacement?
    Mr. Dillingham. That can pose a lot of challenges, and we 
are working on that presently. We are working on that with 
Puerto Rico, where we are doing an update lead. We are actually 
going to every residence in Puerto Rico.
    We are doing that in Mexico Beach in the northern area of 
Florida, where the hurricane had devastating impacts, and we 
are doing it in California where the fires had burned out some 
housing areas totally.
    So we work with those communities. There are issues there, 
and sometimes with the local jurisdictions--we are working 
particularly with Florida right now. They came to my office, a 
delegation. They said, ``Hey, these people have moved out. We 
would like to have them counted where they were.'' That poses a 
problem for us.
    But what we do is we work with them. Any that come back at 
Census time and are living there and reestablished, we can 
count them, but at the same time, we are also informed, for 
example, that working crews are coming there for 2 or 3 years 
to help build back the area. You count the working crews. It is 
whoever is living in that jurisdiction.
    So we will work with those communities and find out what is 
best, and we look forward in your State and other States and 
working with you on planning that.
    Senator Hawley. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hawley, in my written opening 
statement, I referred to the ongoing cooperation and oversight 
that we have been conducting with the Census Bureau and 
Government Accountability Office, and over the course of the 
last couple years, through that communications, through that 
collaboration, my confidence has certainly grown that we do not 
have some disaster on our hand here, this is pretty well in 
hand.
    I think one of the things, I would like both GAO and Mr. 
Dillingham to comment on this, but this is not the Census 
Bureau's first rodeo. They are not reinventing the wheel.
    You talk about community partnerships. I mean, this has 
been in place decade after decade, and you are just going back 
to these tried-and-true methods as well as using and trying to 
implement technology. It has improved dramatically since 2010 
when, let us face it, that did not work too well.
    So, again, I do want to obviously have this Committee 
hearing point out the difficulties so that we remain diligent 
and we stay on top of things, but I also think it is important 
to communicate to the public that we do have things in a 
manageable situation. And I do not think anybody should be 
panicking.
    I will ask GAO. Am I wrong in this assessment?
    Mr. Goldenkoff. No. I think we would agree with that. The 
Census Bureau has a very strong management team. As you say, 
this is not their first rodeo. This is their second, third, 
maybe fourth rodeos in some cases, a lot of experience going 
into the Decennial Census.
    There will be some glitches. It happens all the time with 
something this massive. There are a lot of moving parts, but 
having all that experience and the management team there, the 
hope is that they will be able to address it quickly. And that 
is what has happened in the past and so not to panic.
    And this is something that Dr. Dillingham mentioned in his 
opening statement, how they work with the oversight 
organizations. This is actually my third Census. I started this 
in 2000, and I think the tone is much different. It started to 
change in the 2010 Census, and we are seeing that continue into 
the 2020 Census, much greater willingness to work with 
oversight folks.
    Actually, GAO put the 2020 Census on its High-Risk list. 
They are not being defensive about it. They are actually 
embracing. They are embracing being on the High-Risk list. They 
are seeing ``Hey, this is a cry for help. We need the 
resources.'' They are working with us. We share our best 
practices in a range of different management areas, everything 
from cost estimation to scheduling to IT management.
    Dr. Dillingham met with the head of our organization. We 
meet with Dr. Dillingham on a monthly basis just to share 
information. We are not adversaries on this. We are really all 
on the same side here in favor of a good Census, so I agree 
with you 100 percent.
    Chairman Johnson. I think one of the concerns, as you go 
back to 2010--I was not around, but the stories you hear of the 
implementation of technology, we spent $3 billion. It was a 
total disaster. But, again, you think back 10 years ago. We are 
talking about flip phones and BlackBerrys, not iPhones, not the 
level of sophistication, both in terms of devices, the 
technology, the software, as well as the public's ability to 
use.
    So does anybody want to kind of compare and contrast that 
or anybody in the position to do so?
    Mr. Marinos.
    Mr. Marinos. Mr. Chairman, I think that is a really 
important point. As you know better than anyone, GAO has had 
cybersecurity on its High-Risk List since 1997. I do not think 
that is going anywhere anytime soon. The risks have continued 
to grow.
    In many ways, the innovations that the Bureau has pursued 
over the last decade are essential innovations really to try to 
ensure an accurate count and to get a good response rate. So we 
are encouraged by those efforts.
    I think one thing that I would come back to that I 
mentioned in the opening statement as well is that we are very 
encouraged by the Bureau's effort to reach out to others to 
gain assistance. So, in particular, with DHS, many of the 
assessments that DHS has done have been voluntary ones, ones 
that the Bureau has sought out for assistance from DHS. So we 
are very encouraged by that effort.
    Chairman Johnson. I do not want to tip anybody's hands 
here, but in your mind, do you have a list of priority risks 
when it comes to cybersecurity? Is it that online self-response 
portal? Are there other things? What are the most significant 
cyber risks?
    Mr. Marinos. I think the reliance on the Internet is 
creating many of those risks, but I would say that based on 
DHS's assessments, the Bureau's own internal assessments, those 
done by the IG and recommendations we have made, I believe the 
Bureau has a good sense of what those risks are.
    Where we have felt like better attention needs to be made 
by management is on ensuring that they prioritize those risks. 
Some of those risks can be very specific. So a system that 
needs a patch is going to have to get patched. Others are going 
to be longer term. So if some adjustments need to be made 
within a program, such as the need to hire more individuals 
because they identify a new security risk exists, those are 
going to take more time.
    But I think from our perspective, I think that focus of 
ensuring that the Bureau itself knows what the priorities are, 
communicates it not only to Bureau leadership but to Department 
leadership, I think that is what is essential.
    Chairman Johnson. Director Dillingham, what do you think is 
the greatest cyber risk or risk that you are dealing with here 
in the 2020 Census?
    Mr. Dillingham. Mr. Chairman, I am not sure what the 
greatest is, but I want to endorse the comments just made and 
the need for us to continuously evaluate and prioritize the 
risk.
    This is a day and age where you do not know--I must 
confess, watching television last night, and they had experts 
on TV discussing the ongoing cyberwar between nations. There 
are certain things that may be unpredictable. That is one of 
the reasons that we identify the risk. We prioritize them. We 
had the risk registries that GAO strongly endorses so that we 
can continuously evaluate, and if we get indicators as to what 
the risks may be from the intelligence agency or others, we can 
act on it quickly. So I cannot say----
    Chairman Johnson. So you have a priority list----
    Mr. Dillingham. Yes.
    Chairman Johnson [continuing]. But then also you are going 
to remain flexible to emerging risks?
    Mr. Dillingham. That is correct. And with the 2020 Census, 
we have an overall risk registry of 29 major risk categories, 
but when you get down to the numbers, we scan for 100,000 risks 
every month.
    There are different types of risks, but in the last year, I 
have seen figures where we have responded to approximately 
150,000 risks. Now, many of those are really IT risks that can 
be quickly resolved. Some others, we have a process. We call it 
a planning and a plan of action that we put together, and we 
establish the milestones.
    GAO looks at our milestones, and they remind us if we are 
not meeting our milestones. But we are doing that ourselves as 
well.
    So we are always managing the risks with the best 
information, the most knowledge and the most expertise, and I 
think some of the best new tools ever.
    Chairman Johnson. In GAO's testimony, they were talking 
about the computer system for the hiring process. We spoke over 
the phone about where you are in terms of hiring the people, 
and you were actually quite optimistic about that. Do you want 
to talk about the computer system? But do you also want to talk 
in general about where the Bureau is in terms of its hiring?
    Mr. Dillingham. Sure. One of the innovations, important 
innovations we have this time, is that people can apply online, 
and we are advertising that. And we ask you and others to 
advertise that fact. Go to our website, 2020census.gov.
    Chairman Johnson. We will let you get that, and we will 
advertise that later.
    Mr. Dillingham. That is right.
    I am pleased to tell you that when I looked at the figures 
this morning, we had 600,000 people have applied for jobs. Now, 
we are in the process of hiring 60,000 of those to be what we 
call ``listers'' or ``canvassers.'' So that is a monumental 
time-saver, cost-saver way of doing business. However, we did 
have----
    Chairman Johnson. So you are saying 600,000 have applied 
online?
    Mr. Dillingham. That is correct.
    Chairman Johnson. So, obviously, that hiring portal is up. 
It is operating. It has already accepted 600,000 applications, 
and out of that, you are only going to hire a tenth of that?
    Mr. Dillingham. Well, it is not all 600,000 for that series 
of jobs, and I am told about maybe 400,000 or half at least 
were. So we had about five or six potential applicants for each 
job.
    Now, when we get to the enumeration and we need close to a 
half million people, then we would like to have 2.5 million 
people in that database, and we are hoping we are going to 
achieve that. And we are going to be working that particularly 
in the fall when it is time to engage that next hiring peak 
that we will experience.
    Chairman Johnson. Does your staff have that website that we 
want to highlight in the hearing yet?
    Mr. Dillingham. If I was not under the lights here, I would 
remember. 2020census.gov/jobs.
    Chairman Johnson. OK, sounds good. But I would think just 
kind of going onto the Census Bureau's overall website, you 
ought to be able to click onto that pretty well.
    Mr. Dillingham. Mr. Chairman, you had mentioned one other 
thing in starting that line of questioning about the importance 
of the experience and the depth and the partnerships. The team 
is deep at Census.
    An email this morning, there were two people that I was 
commending for working on their seventh Decennial Census, and 
some of our senior staff have multiple Decennial Censuses. Many 
of them have four.
    And when we hire the people, the partnership specialists, 
and I go to Columbia, South Carolina, and the partnership 
specialists have purchased their own beautiful red blazers 
embroidered with ``2020 Census'' and they are ready to go to 
work again, it is very encouraging and very motivational. And 
when they cook the cakes with the ``2020 Census,'' these people 
look forward 10 years to coming back and working on the 
Decennial Census.
    Chairman Johnson. Were we hiring second graders back seven 
decades ago?
    Mr. Dillingham. Well, you would think so. [Laughter.]
    It is a little bit deceiving because you can subtract 10 
years. Many of them got their first experience in a Decennial 
Census. But there are a couple with 60 years.
    Chairman Johnson. Well, again, commend them for us.
    Mr. Dillingham. Yes.
    Chairman Johnson. Thank them for their service.
    Let us talk a little bit about promoting that online self-
reporting because I think that is huge--well, and just self-
reporting through the mail as well. Exactly what is the Census 
game plan there in terms of promotion, advertising? What are 
your messages?
    Mr. Dillingham. The overall messaging for the campaign is 
``Shape Your Future. START HERE,'' and that will be connected 
with the link to the 2020 Census, where you can respond by 
Internet. So it is a reminder throughout the campaign is ``Help 
shape your future. Start here.''
    So, in many instances, you can link directly, and it will 
have the link in the advertisement. In others, it may be on the 
air, which they would repeat the website to go to. But there is 
going to be tremendous--we have one of the--again, one of the 
largest campaign contractors in this area, and we have 
subcontractors for all the hard-to-count populations or at 
least large groups of them. And we think that people will go 
directly to that.
    In one city that I was in, they were just putting in Wi-Fi 
in the buses, and the city was saying, ``Hey, we can put 
advertising in the buses,'' and people on their way to work can 
answer the Census.
    Chairman Johnson. So let me make a suggestion. OK, fine. 
Save your future.
    Mr. Dillingham. Sure.
    Chairman Johnson. Help the government save money. Self-
report.
    Mr. Dillingham. Absolutely.
    Chairman Johnson. OK. That would at least resonate.
    Mr. Dillingham. Absolutely. That is sometimes a hidden 
message, and maybe it should be more visible.
    Chairman Johnson. I like very overt messages, particularly 
when it comes to saving the government money.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I am Tom Carper, and I approve that 
message. [Laughter.]
    Every now and then, Dr. Dillingham, people say--let me say, 
first of all, Robert and Nicholas, thank you very much for 
being here. Thanks for the good work that you and your 
colleagues are always doing as well as to the Census folks.
    This brings back almost like deja vu 10 years ago when we 
had other folks sitting at this table. We go through these, ask 
a lot of questions, and I am pleased to hear that real progress 
has been made. It appears to being made on the technology and 
the technology front, and it will enable us to get better 
results, more accurate results for maybe less money. That would 
be much appreciated.
    Dr. Dillingham, people ask me--not every day, not every 
week, but people say to me what keeps me up at night. What 
keeps you up at night? And not only that, what are a couple of 
things that keep you up at night, and what are a couple things 
we can do here in the Congress to make sure you get a better 
night's sleep?
    Mr. Dillingham. Thank you so much, and I know what a great 
supporter you are of the Decennial Census as well as the Census 
Bureau, and we very much appreciate that. We have had some 
conversations with regard to security and other things and 
appreciate your keen interest in that.
    Senator Carper. Thank you.
    Mr. Dillingham. The thing that keeps me up at night is 
really making sure all the pieces are in place and that we stay 
on schedule, on time, and on budget. That is the overall 
business plan, and it is an excellent plan developed over a 
decade, as the Chairman mentioned. So it is all pieces of it 
that keep us up at night.
    Now, as far as supporting Congress, I want to thank the 
Congress for the demonstrated support, both financial and 
otherwise, but one of the things is--and it was pointed out 
during this hearing--is we have to communicate this message to 
a much wider group, and Congress is well positioned to do that.
    We have delivered, for example--just it may be helpful--
toolkits to every Member of Congress on how they might work 
with their partners and others to get the job done, and we have 
seen Members of Congress embrace this. We have seen some very 
healthy competitions.
    I know, for example, the mayor in Milwaukee was telling us 
when we were there that the has a friendly bet with--or was 
going to enter into a friendly bet with the mayor Minneapolis 
to see who could get the highest self-response rate.
    We have had Members of Congress say that, ``Oh, I''--we 
published the partnership list, and they say, ``Oh, I have all 
these partners I am working with, and I may be head of the 
Census Caucus. But I look at my neighboring Congresswoman and 
friend, and that list is shorter. So I am going to nudge them a 
little bit and say we need a competition here. You need to 
catch up with me.''
    So whatever the mechanisms are, just spreading the word and 
the message, again, that it is safe and it is easy and it is 
important, I think we are well positioned at this point. We 
have a definite path forward, so I think that getting that 
message out.
    Some people would speculate that even the attention that 
may be considered attention of disagreements on the Census 
could in fact become beneficial because people know now that 
the Census is very important, and they will engage in helping 
us reach everyone.
    Senator Carper. Great. Thank you. We will be looking for 
the toolkits. Thanks for sending it to us.
    Thanks very much for talking with me earlier this week. I 
understand that this new entity within DHS, which is 
Cybersecurity and Infrastructure Security Agency (CISA), which 
legislation that the Chairman and I and others have partnered 
on.
    We understand that CISA has partnered with the Census 
Bureau----
    Mr. Dillingham. That is correct.
    Senator Carper [continuing]. To prioritize the 
cybersecurity posture of the 2020 Decennial Census. One of the 
tools that DHS has to help manage agency cybersecurity risk is 
something called the Department's ``EINSTEIN system,'' and I 
mentioned this to you, EINSTEIN 1, which came along first. I 
use it like a security-guarded gate and vehicles are coming in 
and out of a particular location. EINSTEIN 1 basically says 
that the security guard's car has gone through--or vehicle has 
gone through. EINSTEIN 2 says a car or vehicle of interest has 
gone through. EINSTEIN 3 says a car of interest has gone 
through, and let us stop that car.
    But I would just say, Can you give us an overview of how 
the EINSTEIN system--starting with EINSTEIN 1, EINSTEIN 2, 
EINSTEIN 3--have been implemented in securing the information 
collected by the Bureau, if at all?
    Mr. Dillingham. Senator, I love your analogy on how that 
works, EINSTEIN 1, 2, and 3, and EINSTEIN has been mentioned 
publicly. But what I would like to do is perhaps have my team 
come and speak with you and your staff on that.
    We have visited the DHS offices, and we made sure that 
everyone had the proper clearances. And so I am not quite sure 
where the boundaries of the discussion might be. It is a 
sensitive topic. I would be glad to talk with you about that.
    Senator Carper. Maybe when they come, they can bring 
another toolkit for us. You can never have too many of those. 
Have someone to gift to somebody else.
    Mr. Dillingham. Yes.
    Senator Carper. One of the major goals that my staff and I 
hope to achieve with this hearing is having both the Census 
director and GAO help us identify those milestones or really 
benchmarks, if you will, that we in the Congress at this moment 
need to monitor so that we can know whether the Census remains 
on track for the 2020 count.
    What are some of those benchmarks or milestones that we 
need to be monitoring? Just give us an example of a couple, so 
we will know whether the Census remains on track for the 2020 
count, OK?
    Mr. Dillingham. That is correct. We will certainly keep you 
updated. I know GAO will, and we will as well at any time. We 
will pass the information to you, and we are very pleased to 
say we are on track now. And we want to remain on track.
    Senator Carper. Let me just ask our other two witnesses. 
What are some of the benchmarks or milestones that we ought to 
be mindful of and watching?
    Mr. Marinos. Sure, Senator. So with respect to the two IT-
related challenges that we have highlighted previously, on the 
systems readiness side, the next 6 months are pretty critical. 
We have, of those 16 operational deliveries, about nine are 
going to have some pretty critical milestones themselves from 
an IT perspective. I think about 12 of those will also be in 
the midst of testing. So there is still a lot of work when it 
comes to ensuring that not only these systems have been 
developed, but they are scalable. Their performance is going to 
work as intended.
    On the cybersecurity side, we still maintain our 
recommendation. We are encouraged that the Bureau is working 
toward implementing our recommendation, which can help it to 
formalize that good feedback that they are getting from DHS. I 
have reviewed all of the reports that DHS has produced for the 
Bureau. I think they are good recommendations, and so we would 
just like to see how the Bureau intends to either address those 
recommendations head on or if they have other activities that 
may actually compensate for areas where DHS had findings.
    Senator Carper. Good. Thanks.
    One more question, if I can, Mr. Chairman.
    One of the concerns I have, Dr. Dillingham, is ensuring 
that Census enumerators are properly identified and that the 
public can trust that the person show up at their house is, 
indeed, a credentialed Census Bureau employee. Just give us 
some idea what the Census Bureau is doing to ensure that the 
public can trust and verify that an enumerator knocking on 
their door, ringing their doorbell is who they say they are.
    Mr. Dillingham. Senator, we totally agree with you on that. 
I have met with the International Association of Chiefs of 
Police, and we do have some plans in process.
    One of the options that we are looking at is actually every 
police department across the Nation has a roll call in the 
morning, and we are even actually thinking of videos that we 
can share with the local police and remind their officers, et 
cetera.
    But I did have a police chief, as I recall, in the State of 
Georgia who specifically mentioned that. We went through a 
hard-to-count area. It happened to be a high-crime area, and he 
said, ``We need to know exactly your credentials, what they 
look like, so we can make sure.''
    We have discussed this with the Office of Inspector 
General. She agrees. We actually have in mind a joint letter 
coming from the IG as well as from the Census Bureau that would 
go out to all the law enforcement on that topic.
    Senator Carper. Mr. Chairman, I do not know if you all have 
in Wisconsin something called ``Text4Baby,'' Text--T-e-x-t--
4Baby. And I think it might have been an idea, brainstorm from 
maybe Johnson & Johnson, and we use it in Delaware to try to 
make sure that parents are bringing their children in for 
doctor appointments, and a lot of the folks that are signed up 
on Medicaid, we have a lot of absenteeism, people making an 
appointment and they do not show up. We have done it for years 
in Delaware now is Text4Baby, and we have the phone number of 
the parent or parents. And they get text messages saying like 1 
week from today, there is an appointment for your child; 3 
days, tomorrow. And it actually works.
    I always like to find out what works, do more of that. 
Text4Baby works in this regard, and it might be just one more 
idea, one more tool in your toolbox that you want to think 
about.
    Chairman Johnson. Thank you. Well, technology is a 
wonderful thing, and I appreciate you pointing out the security 
issue of, let us face it, strangers walking up, knocking on a 
door, and making sure the American public understands this is a 
Census worker here.
    With the controversies that have been strong in this 
particular Census, Because I am aware that a couple of Senators 
are still going to come back from a vote and want to ask some 
questions. So what I would like to do is give the director a 
little chance to just lay out the basics.
    I mean, those of us involved in this, we kind of understand 
these things, but let us just lay out some basics starting with 
the laws in place to protect this information. This is not used 
for purposes other than what is intended within the Census. So 
I want you to cover that first.
    Mr. Dillingham. Well, Senator, Title 13, when Congress 
passed those provisions back in the 1950s, it made it a very 
serious Federal crime, 5 years in prison and a quarter of a 
million dollars in fines for anyone who violates 
confidentiality. So the law in and of itself has a lot of teeth 
in it, and there has been no instance since then where the 
Census Bureau officials have been convicted of such a crime.
    Chairman Johnson. Again, the Census goal is to enumerate, 
to count everyone in the country.
    Mr. Dillingham. That is correct.
    Chairman Johnson. Citizen, noncitizen, to count everybody, 
and again, talk about that purpose and exactly how it is used, 
what it can be used for, and what it cannot be used for.
    Mr. Dillingham. The data we collect, it is really very 
simple, and it is in Title 13 as well. The recent Executive 
Order by the President recognizes it, puts it straightforward 
and front and center that the uses are for statistical 
purposes. There is no law enforcement purpose whatsoever that 
this data can be used for.
    So at the end of the day, the Census Bureau produces 
aggregate statistics. We produce aggregate numbers. That is our 
product. So we collect data. Data comes in. We analyze it, and 
a number comes out. And this number is not a personally 
identifiable information data number. It is group aggregate 
statistics, and we are embarked--we have mentioned to Members 
of Congress--in some additional protections that looking toward 
the future with enhanced computer capabilities and the matching 
of data with public and private datasets, with large computer 
systems, we are putting in place some additional safeguards, so 
that that will not be an option for people in the future.
    Chairman Johnson. The numbers are obviously used to 
apportion House seats.
    Mr. Dillingham. Exactly.
    Chairman Johnson. Again, an aggregate number form to inform 
Congress in terms of public policy.
    But very specifically, you said law enforcement. We are 
talking about no form of law enforcement, not local, not State, 
not Federal, not DHS. I mean, so, again, just reinforce that 
point.
    Mr. Dillingham. That is correct. Again, at the end of the 
day, public numbers. So whatever numbers go out, the entire 
country can use or internationally they can use the data, and 
it will be aggregate data that you cannot violate someone's 
confidentiality and know their personal data from that. And it 
goes out, and we do not have any other information-sharing 
arrangements or understandings.
    So the public can look at the data and use it for 
policymaking, decisionmaking, but it is not used for law 
enforcement or any other purpose of that type.
    Chairman Johnson. So, again, I think that is an important 
point to reinforce, and we can go to GAO who is taking a look 
at these things. Make that same point. Have you ever seen in 
your inspections of the Census Bureau--have you ever seen this 
information misused?
    Mr. Goldenkoff. No, never. The Census Bureau goes to great 
lengths to maintain the privacy and confidentiality of the 
information, and it extends from, as Dr. Dillingham said--it is 
a one-way flow of information. The Census Bureau has access to 
other agencies' information, but other agencies cannot access 
the Census Bureau's information. There are a lot of other 
structural safeguards as well mentioned that every person who 
works on the Census, even GAO, others, we take an oath not to 
disclose the data. And that is a lifelong oath as well.
    We undergo training every single year, and if I do not take 
the training, the Bureau is quick to say, ``Hey, you have not 
taken the data stewardship training.''
    So even in terms of where the Census Bureau locates its 
area census offices, they go to great lengths not to put them 
in buildings where there are other law enforcement agencies, 
again, to show that distance between the Census Bureau and 
other agencies.
    Then, finally, once the data are released, there is a whole 
smorgasbord of things, steps that the Census Bureau takes, so 
that the data does not get accidentally disclosed.
    If you get down to low levels of geography, it might be you 
can look at someone's house. It is the biggest house on the 
block there, and under normal circumstances, you might be able 
to trace that back. But the Census Bureau does go through 
disclosures. They actually add noise to the database so that it 
is not possible to find information on that household. So we 
are really impressed with what they do.
    Chairman Johnson. So, to summarize, the law is clear.
    Mr. Goldenkoff. Yes, sir.
    Chairman Johnson. The law is strong, and the culture within 
the Census Bureau reinforces exactly that law in terms of this 
is a one-way street? Information comes in, but no personal 
information is released.
    Mr. Goldenkoff. It does not go out.
    Chairman Johnson. It is not used by law enforcement for any 
purpose whatsoever. It is simply used for the purposes 
intended, stated in the law in Title 13.
    Mr. Dillingham. That is correct, an excellent summary.
    Mr. Goldenkoff. And as he said, it is a cultural thing too, 
and I think that is important.
    Chairman Johnson. That is important. Again, we want to 
provide that assurance to the public because we want a full 
accounting.
    Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you so much, Mr. Chairman.
    Dr. Dillingham, Indian Country is a special place.
    Mr. Dillingham. Yes.
    Senator Sinema. And the treatment of Native populations by 
the Federal Government is personal for me. The Navajo Nation in 
Arizona has a poverty rate of 38 percent, which is more than 
twice as high as the rest of the State of Arizona, and the 
median household income on the Nation is only $27,389 per year. 
So members of the Nation are guaranteed by treaty benefits such 
as health care and education.
    Arizona has more Bureau of Indian education schools than 
any other State. In Lake Havasu, the Havasupai Elementary 
School has been under the Federal Government control since 
2002, and yet only 20 percent of students go on to graduate 
from high school. That is compared to 72 percent of American 
Indian students nationwide.
    And in 2018, the school only had one permanent teacher and 
one special education teacher for all nine grades. I know 
personally the positive impact that a good education can have 
on someone's life.
    This information makes the historic undercount of American 
Indian and Alaska Native populations even more worrisome, as 
they depend on accurate count to receive the funding that they 
are owed for education.
    In 2010, this population suffered an undercount of 4.88 
percent, according to the GAO.
    So, in 2016, it was announced there would be two tests in 
Indian Country in preparation for the Census. These tests were 
to measure proposed Tribal enrollment question, and quoting 
from Census materials, ``Test the integration of systems for 
the update enumerate operation, where Census field staff visits 
households to update the list of addresses and count the people 
at the address. This operation typically occurs in areas where 
we have a low likelihood of mail delivery.''
    These tests were canceled and the question abandoned due to 
budgetary uncertainty. What were the impacts of instituting the 
update enumerate program in Indian Country without previous 
testing?
    Mr. Dillingham. If I can, I will start more generally. You 
are exactly correct that the Navajo Nation is a very hard-to-
count population, and I went to a portion of the Navajo Nation 
in New Mexico. I know it stretches across Arizona, all the way 
to the Grand Canyon, and as I mentioned in my opening 
statement, it is the size of West Virginia.
    I have seen and I have ridden through areas along with the 
vice president of the Navajo Nation, who I could not have been 
more impressed with, with his dedication and motivation to 
making sure everyone is counted.
    We actually went down some of those dirt roads in some of 
those very rural areas, where there is no plumbing, sometimes 
no electricity, and sometimes not accessible by vehicle.
    So I have seen. I went to a home, and only the Navajo 
language was spoken. They were building beside the home, some 
other structures for other members of the family that needed to 
be counted. So we need to make sure that everyone is counted 
once they reach that home.
    But I did hear from that individual also that not only do 
they have problems with connectivity, with computer Internet 
connectivity, but they said they had to go stand on top of the 
doghouse with their cell phone to get coverage in that area.
    I have seen these challenges, and we have talked with the 
officials, particularly in that chapter of the Navajo Nation 
that was nearest west of Albuquerque, and investigated. I will 
say that there was a broadband provider that had the cable 
actually on the nearby land, ready to run it, and in that 
particular instance, it appears that they would have their 
facilities connected in time for the Decennial Census, which 
would be a mammoth improvement. It is where their courts and 
all their functions were.
    Now, back to the 2016 tasks that were canceled, that 
predates me by several years. I understand that for budgetary 
reasons they were. But my understanding of those tasks, they 
were multifaceted. One was, in fact--with the populations that 
they were looking at, there were some other issues with regard 
to enrollment into the Tribal population, and I know that there 
were some Native American organizations and maybe Tribes that 
that was not an interest rate of theirs, and others, it was.
    In addition to that, it was really testing out the 
operations, and my understanding, it was, by and large, 
reaching them in this very tough geographic location. Sometimes 
members of the Tribe, especially for the enrollment purpose, 
they may live in Albuquerque during the week and go back and 
forth with their relatives. So they were being counted outside 
the reservation, and that was of concern also to the Native 
Americans.
    But I will say that we have tested our systems, and our 
systems were working. So we have learned, even though we did 
not test in those jurisdictions, but it still leaves the issue 
on reaching them.
    So what we are doing with our partnership program is we are 
hiring people from the Tribes that can reach them or that work 
with them, and in one instance--and it was the one that I 
visited--we had an IT person from the Tribe who was assisting 
the Tribe with these options.
    In some cases, it may be that if they cannot establish 
connectivity with a telephone or through the Internet with a 
computer, then we hope they will mail back the forms, and we 
will provide the language assistance. But even if that does not 
happen, we actually send the enumerators out, and that is no 
simple task.
    I have heard some stories about that, and one of our 
enumerators walking 5 miles through the desert when her car 
broke down.
    I want to both commend these enumerators but say that it is 
a mammoth job to reach some of these populations. I sympathize 
with you. I am not sure if there is any disadvantage as a 
result of that particular test being canceled at that time, but 
we will work with you and make sure that in your State that we 
do everything possible through our partnership program, through 
our outreach program, as well as in the mailing options. And in 
those instances, as I mentioned earlier, we send out the 
questionnaire in the very first mailing, if they have low 
Internet connectivity in that geographic area.
    So we will do everything we can. We want to work with you 
and your local officials, State officials, local officials, 
Tribal officials to make sure everyone is counted.
    Senator Sinema. Well, thank you for that answer.
    This is particularly important, as you mentioned, the 
Navajo Nation. Many residents in Indian Country lack an 
address.
    Mr. Dillingham. Yes.
    Senator Sinema. So it is especially difficult for the 
Census Bureau to identify those households.
    Of course, as you alluded to, the nonresponse follow up is 
incredibly important in these very remote areas. So I will take 
you at your word and ask that we work closely together as we 
head into the Census.
    As you noted, the Navajo Nation is the largest nation in 
all of Indian Country and unfortunately has had fairly dismal 
Census cooperation and returns in the past years. This is very 
important to us.
    Census Bureau focus group documents have discussed what 
they call ``unusual respondent behavior'' and fears of how the 
government may use the information that is collected next year. 
One document that I reviewed showed that field staff have 
requested additional support to help overcome some of this 
mistrust in communities, particularly communities of color in 
Arizona.
    How has the Census Bureau addressed the issues raised by 
field staff in the areas of concern around distrust and request 
for additional staffing, and what are you doing to ensure that 
American Indians and Alaska Natives are reached carefully, and 
that their concerns around mistrust of the government's use of 
this information is allayed before the Census occurs?
    Mr. Dillingham. Senator, that is, again, an excellent 
question.
    You referenced our focus groups, and it sounded like the 
research maybe that you were referring to was a product of some 
of the focus group activities. We have had more than 120 focus 
groups across the country, including with Native Americans. 
Those have been very important.
    The direct intent of those focus groups are for purposes of 
our media campaign, how best can we reach them. In some 
instances, like in New Mexico, we find it is radio as versus 
TV, et cetera, because if they have a vehicle, they typically 
have a radio. Sometimes they rely on that radio, and that is 
the best mechanism.
    So the outreach campaign will have that, but we will have 
special materials. Again, it is integrated with the partnership 
specialists. We will hire specialists from those communities 
and from those Tribes.
    Also, the distribution of our materials during NRFU will be 
extremely important. I know that when I was in the Navajo 
Country there, we even went to the health centers. They 
recognized the importance of that facility when people come for 
health services that that also could be a place where they 
could be informed about the Census, and we would have the 
capability of sharing the Census information either by phone, 
Internet, or by the hard copy, that we could set up perhaps a 
census day there through our partnership specialists.
    So there are many different ways that we are going to try 
to reach that hard-to-count community, but we look forward to 
working with you.
    Probably, the most important one, I would say, in many ways 
is the trusted voices, so both in the media and the partnership 
specialists, et cetera, and the Complete Count Committees, and 
I do know that there are Complete Count Committees. I will 
discover what particular one the Navajo Nation may have. They 
may have several, but through those mechanisms, we have trusted 
voices. When the authority figures and the trusted voices in 
those communities express their support for the Census as well 
as the importance and easiness with which to respond, I think 
we will achieve a lot of progress in that area.
    Senator Sinema. Thank you.
    Chairman Johnson. Thank you, Senator Sinema.
    Senator Sinema. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. I appreciate you bringing this hearing. 
Thank you for all the witnesses for being here today.
    I want to continue on a little bit on the language 
assistance mode before I go into some other areas. So, Dr. 
Dillingham, last week, I joined some of my colleagues in 
sending a letter requesting that the Census Bureau provide 
additional language options for the Internet self-response and 
Census questionnaire, including Khmer, Hmong, and Lao. These 
support services would ensure that immigrant communities from 
places like Cambodia, Vietnam, and Laos, including the large 
Laotian community in southern Nevada can actively participate 
in the Census and be counted.
    So, as we note in these letters, sometimes these 
communities face unique challenges because of their refugee 
experiences, intergenerational poverty, and trauma faced during 
the Vietnam War.
    I am wondering if you have had a chance to review the 
letter and if there is currently a plan to offer assistance and 
self-response in these languages.
    Mr. Dillingham. Senator, I will look. I am aware of a 
series of letters that touch on this topic. I will certainly 
get back to you very soon with regard to your letter.
    We have 59 languages that we provide assistance to. Through 
our customer service phone centers, we have English plus 12 
additional languages, which would not encompass the ones that 
you mentioned.
    Then we actually have a list where we go down through the 
59 languages, and the percentage population that we are able to 
reach with the language assistance is 99.6 percent. And that is 
still not enough. We have the enumerators that ultimately will 
be knocking on the doors, but we would appreciate self-
reporting ahead of time.
    So in those areas and in the languages that you mentioned, 
I am assuming maybe it is in an urban area. Maybe it is in Las 
Vegas or whatever.
    Senator Rosen. Yes.
    Mr. Dillingham. We have partnership specialists there that 
will identify that need, and they will link up with the local 
university or whoever can assist in that effort.
    Senator Rosen. OK.
    Mr. Dillingham. In terms of it is probably unlikely at this 
point that we can actually change our systematic way of 
reaching them, but we will find a way to reach those 
populations.
    Senator Rosen. We can find a way to get them there.
    Mr. Dillingham. Yes.
    Senator Rosen. Thank you.
    I want to move on to a little bit of the IT and cyber 
staffing. Today the GAO released a report detailing the actions 
the Census Bureau has to take to address the key risks for a 
successful Census.
    Under the category of cybersecurity, it is noted as of the 
end of May 2019, the Bureau had over 330 corrective actions 
from its security assessments that need to be addressed. Out of 
the 330, 217 were considered high risk or very high risk. Of 
those 217, 104 recommendations were delayed, considered delayed 
due to technical challenges or resource constraints.
    So I want to ask a little bit about resource constraints. 
Are they a financial issue or manpower issue, Number one? Which 
one? Then I will have some other follow-up questions.
    Mr. Dillingham. Senator, with regard to those specific 330, 
I mentioned in my opening statement that risk management is the 
way we do business, and we have a continuing list of those 
risks. Right now it is in the----
    Senator Rosen. No, but in order to address these, do you 
need financial help, or do you need manpower help? And with the 
manpower, I have one important question.
    Mr. Dillingham. I would say actually neither of the two are 
the driving force because we continuously--and we will have 300 
or perhaps more risks. They change every day. Risks come off, 
and risks go on.
    Senator Rosen. So how can they not----
    Mr. Dillingham. It is very dynamic.
    Senator Rosen. A person has to correct them. So there has 
to be some man-hours associated with----
    Mr. Dillingham. That is correct, but we have had 
discussions internally. We will never be at zero.
    Senator Rosen. No. I understand you are never at zero. But 
in order to meet your timeline, these very high-risk things, we 
have a timeline of when we have to start and when we have to 
end. So understanding we will never be at zero, always taking 
corrective action--I wrote computer software for a living. I 
get it.
    Mr. Dillingham. Sure.
    Senator Rosen. But my point is that these tasks that need 
to be done as far as manpower is concerned, are they 
consecutive tasks or concurrent tasks? Is throwing more people 
at it the issue? Is it a matter of trying to test it 
concurrently? How can we help you be sure that you meet and 
correct these highest issues with the resources that you need? 
There is a very specific begin and end date here. It is not an 
ongoing rolling thing that we always have when we are 
maintaining software systems, every software system in the 
world.
    Mr. Dillingham. Yes. Senator, we have remedied or resolved 
150,000 risks. So the 300, of all varieties, we continuously 
work on.
    Senator Rosen. So then you feel confident you need no more 
resources to address the risks?
    Mr. Dillingham. Senator, we have a good team in place. We 
always could use a few more, but I cannot say that the process 
in having those risks are necessarily the product of that. We 
have talents, and we do have some openings in some of our IT 
areas that would always be--and we are working to fill those 
now, but I cannot say it is the direct product of a current 
budget need. So it is not because of a lack of funding. It is 
attracting the talent and getting the right people in the right 
place doing the right things, and we are working them.
    We can always do better. We can always work harder, but we 
are working the risk.
    Senator Rosen. I actually really want to--what I am 
thinking is, as we go forward--and we have a timeline for this, 
and there are always things to do. And so as we tie this into 
our cyber-ready workforce bills, other things that I have 
introduced, we have these ongoing needs. This is one of the 
reasons that I am asking because, as we prepare not just for a 
Census that happens every 10 years, but for things that happen 
every year, the resources, the manpower, having that in place, 
understanding those needs and how we can help position people 
to be in that place is really important. So that is why I was 
asking these questions.
    Mr. Dillingham. I agree with you, Senator, and the GAO will 
testify we are making progress. We want to make more progress 
and do it faster, but I can tell you that if there was a direct 
resource need, I would certainly identify it to you. But I 
cannot say I attribute that at this time that it is a resource 
need that is causing this risk list.
    It is really what we call a ``risk appetite''--is the 
language used by GAO. You have to assess the risk each and 
every day as an individual or as an organization or as a 
program.
    For example, if I get on a motorcycle, I have to decide 
that I want my apparel and my helmet on. For me, I have to 
require that. Others may not. But it is your risk appetite, and 
we do want to make sure we lower those risks. We are working to 
lower those risks, and if we identify that this is a result of 
a lack of resources, we will certainly work with the Committee 
and bring it to your attention.
    Senator Rosen. Yes. Please let us know because this is very 
important that we get it right.
    Mr. Dillingham. Yes, Senator.
    Senator Rosen. Thank you.
    Chairman Johnson. Thank you, Senator Rosen.
    Before I turn it over for final question to Senator Peters, 
I want to acknowledge a group of young men that have just 
joined us in the hearing room. These are our 33 candidates that 
become Green Beret. They are looking as clean as they are going 
to look in the next 30 days because tomorrow they start a 30-
day intense field exercise, after which they will be awarded 
the Green Beret.
    I apologize I was not able to meet with you earlier. I will 
hopefully stick around after the hearing to answer a couple 
questions.
    These gentlemen are the best of the best, of the finest 
among us, and I cannot thank you enough for your service. And 
we will talk to you after the hearing. Senator Peters.
    Senator Peters. Well, thank you, Mr. Chairman.
    Also, I want to wish my best as well to these future Green 
Berets. We wish you all the best. The Green Berets have an 
incredible history of service to our Country, and we are 
confident that you will continue to carry on that tradition in 
the years ahead in your service. Godspeed to each and every one 
of you.
    Dr. Dillingham, my final question for you is many folks, 
including I think some Census experts, but other folks are very 
concerned that there are some bad actors out there that are 
going to attempt to discourage people from participating in the 
Census. And you are likely to see some disinformation campaigns 
put out through social media and other outlets.
    We obviously see misinformation or disinformation campaigns 
in a variety of contexts now around the world. It is reasonable 
to expect we are likely to see it in this realm, particularly 
given the fact that trust is such an important aspect of Census 
collection.
    So my question to you is, What are you doing to combat 
intentional disinformation campaigns that will be used to 
mislead the public? And, specifically, are you working with 
platforms like Facebook and Twitter in anticipation of this? 
What can we expect out of the Census Bureau?
    Mr. Dillingham. Senator, it is an excellent topic and 
question.
    We are working with the groups that you mentioned and some 
other groups. We are working with the private sector as well. 
We do have collaborative relationships in place where they will 
share information with us as we need it, but we are also 
working, as I mentioned, with the intelligence agencies and 
particularly DHS.
    We are thinking about it. We have a group devoted to just 
this topic, and they are doing both planning for prevention as 
well as response to these types of activities. And I do think, 
regretfully, we are in that age now where this, as you 
accurately point out, this is a potential vulnerability and a 
thread.
    So we are planning for it. We are thinking of ways to help 
prevent it, and we are working with, I think, the best people 
with the most knowledge in both the public and private sector 
on that. But even in those sectors, it is something that they 
constantly work on and are worried about, and we are making 
plans in coordination with them to respond to it, to mitigate 
it, should it occur.
    Senator Peters. Well, I appreciate that. I think I would 
like to have a further discussion with you.
    Mr. Dillingham. I would be glad to, with staff, and get 
into more specifics.
    Senator Peters. To look in the details.
    Mr. Dillingham. Yes.
    Senator Peters. This is an issue we are confronting on the 
Homeland Security Committee very broadly. Both the Chairman and 
I serve on the Armed Services Committee. These are real issues 
that we have to address, so I look forward to working with your 
staff and getting a better sense of how you plan to handle it.
    Then as these things materialize, the types of reactions 
that you are engaged in would be very helpful for us to monitor 
in our oversight capacity.
    With that, thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Peters.
    Again, I want to thank our witnesses: Dr. Dillingham, Mr. 
Goldenkoff, and Mr. Marinos. Thank you for your testimony, 
taking the time. Thank you for your professionalism.
    I really do leave this hearing feeling a lot better about 
the Census, again, not that there may not be some risk, but I 
think they are being pretty well managed and thought about. And 
that is the first step in managing risk is understanding it and 
trying to mitigate it.
    With that, the hearing record will remain open for 15 days 
until July 31 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 4:14 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
